U.S. Department of                                   The Inspector General            Office of Inspector General
Transportation                                                                        Washington, D.C. 20590

Office of the Secretary
of Transportation


July 11, 2003

The Honorable Joseph Lieberman
Ranking Minority Member
Committee on Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senator Lieberman:

This is in response to your letter of May 27, 2003, requesting an investigation into
the reported involvement of the Federal Aviation Administration (FAA) in Federal
and Texas State efforts to locate an airplane owned by Pete Laney, a member of the
Texas House of Representatives. Specifically, you asked that we identify all requests
to FAA concerning State Rep. Laney’s airplane and FAA actions resultant of such
requests, and that we determine whether FAA’s actions were appropriate and, if not,
what remedial measures are being taken.

We have completed our investigation, the results of which are summarized below,
along with recommendations for Department of Transportation action stemming from
our findings. On June 25, 2003, we briefed your staff on our investigative results.

Our investigation included interviews of over 30 individuals, examination of FAA
transcripts and other FAA and DOT records, and review of an investigative report
prepared by the Office of Inspector General for the Department of Homeland
Security1.

In addition to our summary of our investigative findings and recommendations, we
are enclosing a document presenting our findings in greater detail, including a
chronology of FAA’s involvement; a memorandum from the Department’s General
Counsel addressing the Department’s and FAA’s remedial actions; and a transcript of

1
  By letter to the Department of Homeland Security OIG, dated May 22, 2003, you asked that office to
investigate the Texas Department of Public Safety’s (DPS) alleged destruction of documents, in addition to
your prior request of the Secretary of Homeland Security for an investigation of that Department’s involvement
in the search for Texas State legislators. The Department of Homeland Security OIG issued its report on
June 13, 2003.


Report No. CC-2003-123
                                                                                                             2

telephone conversations between FAA’s Washington Operations Center2 and FAA
employees on May 12, 2003.

Summary of Findings

1. On May 12, 2003, FAA received requests from three organizations for
   information about N711RD.

    In brief, our investigation found that on Monday, May 12, FAA personnel in
    Oklahoma City, Washington, DC, and Fort Worth, TX, received separate requests
    for information as to the location and destinations of a general aviation airplane
    reportedly associated with the absent Texas legislators. This airplane, a twin-
    engine Piper Cherokee—tail number N711RD—is registered to State
    Representative Laney.

    We found that at least 13 FAA personnel were involved in responding to the
    various requests for information about N711RD on May 12, beginning with an
    FAA office in Oklahoma City, which was contacted by the Texas Department of
    Public Safety (DPS) around 1:00 p.m. EDT. This FAA unit is responsible for law
    enforcement liaison agency-wide. According to the FAA employee who received
    the inquiry, the caller said that over 50 Texas legislators were in hiding and that
    the Governor of Texas had issued a warrant for their apprehension. DPS asked
    for FAA’s assistance in locating a plane believed to be carrying some of the
    legislators. As this FAA office lacks the direct capability to locate aircraft, and
    DPS did not have the plane’s registration/tail number or the pilot’s name, it
    simply referred DPS to a Department of Homeland Security facility in California,
    without providing any information.

    We were unable to ascertain whether, in fact, the Governor ever issued any
    warrant or summons. However, Texas DPS provided us with a copy of a letter
    from the Attorney General of Texas to the Director of DPS, dated May 12, 2003,
    upholding—as lawful—a letter to DPS, on that same date, from the Sergeant-at-
    Arms of the Texas House, requesting that DPS secure and return to the House, by
    any available means, absent House members. The Texas Attorney General’s
    letter cites legal authority under the State’s Constitution and House Rules “to
    arrest absentees wherever they may be found.”

    The next inquiry was from a senior staffer for Representative Tom DeLay, who
    called David Balloff, FAA’s Assistant Administrator for Government and

2
  The Washington Operations Center, located in FAA headquarters, serves as FAA’s 24-hour/7 day-a-week
communications and command/control hub, facilitating contact between FAA officials and interfacing with
field Air Traffic Control and other internal and external organizations, on both routine and emergency matters.

Report No. CC-2003-123
                                                                                     3

   Industry Affairs. Balloff checked with FAA’s Washington Operations Center and
   advised the staffer that the plane would be landing shortly in Ardmore, OK. Per
   our review, the earliest media report that absent Texas legislators had been
   located in Ardmore occurred after Balloff’s 4:20 p.m. EDT advisement to
   Rep. DeLay’s staffer. A May 14 Fort Worth Telegram article states, “The
   location of Laney’s plane proved to be a key piece of information because, [Texas
   House Speaker Tom] Craddick said, it’s how he determined that the Democrats
   were in Ardmore.” Early in the evening of May 12, Balloff advised
   Rep. DeLay’s staffer of the plane’s locations on May 11, which she had also
   requested.

   Balloff told us that Rep. DeLay’s staffer offered no explanation for her request
   and he did not ask her about it, though he stated to us, “Having worked at the
   [National Transportation Safety Board], the first thing that came to my mind was
   a safety issue.” We interviewed Rep. DeLay’s staffer, who corroborated Balloff’s
   account of their conversations. We also identified and interviewed a GS-15
   subordinate of Balloff’s, David Kerr, who was present with him when Balloff
   called the Operations Center to ascertain the plane’s location and in turn informed
   the staffer. Kerr confirmed that in calling the staffer back, Balloff did not query
   her about the reason for the request or whether there was a flight safety concern
   involved. According to Kerr, Balloff indicated no awareness of the purpose of
   the staffer’s request.

   The third request to FAA occurred later on the evening of May 12 and involved a
   series of five phone calls from representatives of the Department of Homeland
   Security and DPS to FAA’s Air Route Traffic Control Center in Fort Worth. Air
   traffic controllers in the Fort Worth Center provided aircraft location/flight plan
   information to callers from both the Department of Homeland Security and DPS.

   At least two controllers in Fort Worth were aware of the purpose of the inquiries
   at the time they were received and processed. A supervisory controller told us he
   first learned of the search for the absent Texas legislators from local news reports
   prior to reporting for work on May 12. He advised that later, in fielding the call
   from DPS, he stated to the DPS officer, “You must be looking for the missing
   Democrats,” which the officer acknowledged. A second Fort Worth controller
   related that in contacting an Air Traffic Control facility in Lubbock, pursuant to a
   call he received from the Department of Homeland Security, the controller with
   whom he spoke said, “You know who that [plane] belongs to, don’t you? It’s the
   outgoing Speaker, Laney, Speaker of the House.”




Report No. CC-2003-123
                                                                                                         4

    A Fort Worth controller told us that the DPS officer who called him said N711RD
    was overdue to its presumed destination of Mineral Wells3, and requested a
    search and rescue operation, which the controller determined was not warranted
    as there was no evidence the plane had experienced trouble in flight. The
    controller also advised that during the evening of May 12, the Fort Worth Center
    entered an “alert” for N711RD in the Air Traffic Control computer system. An
    alert would have triggered immediate notification to the Fort Worth Center had
    the plane contacted any air traffic control unit within the Fort Worth Center’s area
    of coverage. The alert was canceled that night after DPS located the plane on the
    ground in Graham, TX, which is in the vicinity of Mineral Wells.

2. FAA lacks clear internal guidance for the processing of requests for FAA
   aircraft/flight information received from law enforcement and other
   Government entities. A separate issue exists concerning public availability to
   aircraft location/flight data via commercial databases.

    It is clear from our findings that FAA protocols for the processing of information
    requests from law enforcement or other government entities require considerable
    strengthening. We did not consider it our role, nor did we attempt, to define what
    does, and does not, constitute a legitimate request from law enforcement/
    government organizations. As indicated below, we have recommended that the
    Department and FAA address the issue of availability of flight data as part of their
    remedial action in response to this investigation.

    FAA controllers we interviewed were not aware of any protocols to follow in
    responding to requests from law enforcement or other government officials for
    aircraft location/destination information. We found that controllers took no
    action to verify the identities of callers, inquire about the reason for the request
    (i.e., in order to identify flight safety issues), or log the contacts—to include
    annotating what information was provided. In fact, none of the involved Fort
    Worth controllers even recalled the name of the caller purporting to be a DPS
    officer. If the calls had concerned a safety of flight issue, for example, the
    controllers would not have known who specifically to call back to provide further
    assistance if necessary. Such a method of operation potentially limits FAA’s
    effectiveness in carrying out its safety mission. At the same time, such a lack of
    protocols creates additional vulnerabilities, namely the possibility of releasing
    data from its information systems to individuals who may falsely identify
    themselves as law enforcement or other government officials.


3
 Earlier that evening, FAA’s Fort Worth Center had informed the Department of Homeland Security facility in
California that N711RD had an active flight plan from Ardmore to Mineral Wells. The Department of
Homeland Security in turn passed this information on to DPS.

Report No. CC-2003-123
                                                                                                               5

    Further, as reflected in the enclosed Washington Operations Center transcript, and
    in our interviews, there was some uncertainty and confusion on the part of FAA
    personnel as to whether aircraft/flight data was publicly releasable. This, too,
    supports the need for clear policy guidance.

    As addressed below, we are recommending to the Secretary that clear policy and
    procedures in this area be implemented. We understand that the FAA Chief
    Counsel, recognizing this area of policy weakness, has initiated a review in
    furtherance of instituting new policy guidelines agency-wide.

    As distinguished from the above issue of clear policy and procedures needed for
    requests for information from FAA databases, we also note the broader, and more
    complex, issue of public availability of aircraft location and flight data. While the
    information FAA personnel provided about N711RD was retrieved from FAA
    databases, we confirmed that comparable information—including near real-time
    aircraft locator data—is currently available to the general public through
    commercial databases accessible via the internet4.

    We are aware that pursuant to a request from Representatives James Oberstar and
    Jim Turner, this issue is currently the subject of review by the Department’s
    General Counsel and FAA’s Chief Counsel. In their letter, Reps. Oberstar and
    Turner raised concern about “the homeland security implications of a policy that
    “routinely” makes information about the flight pattern of private aircraft available
    to the public.” We are recommending to the Secretary that this issue continue to
    receive close examination and deliberations by senior levels of the Department
    and FAA, in consultation with other appropriate Government agencies.

3. The Administrator and the Secretary should have been informed sooner of
   FAA’s involvement. Information that FAA provided flight data to the
   Department of Homeland Security, DPS, and Rep. DeLay’s staff was not
   communicated to the Administrator and the Secretary until May 21.

    We found that Administrator Marion Blakey first learned of FAA’s involvement
    on May 16, when FAA’s Chief of Staff, David Mandell, informed her that DPS
    had contacted FAA’s Oklahoma City office, but that DPS was referred to the
    Department of Homeland Security facility in California, and no information was
    released.

4
 Through a program known as the Aircraft Situation Display to Industry (ASDI), DOT’s Volpe Center makes
certain raw FAA Air Traffic Control data—both near real-time (5-10 minute lag) and historical—for general
aviation and commercial aircraft, available to designated industry parties in accordance with user agreements.
The industry parties, in turn, process the data and make it publicly available (some requiring subscription fees)
via the internet.

Report No. CC-2003-123
                                                                                            6

   On May 19 or 20, Mandell was briefed that DPS and the Department of
   Homeland Security had called FAA’s Fort Worth Center, but he did not brief the
   Administrator pending receipt of further details. On May 20, Mandell was
   provided with a chronology prepared by FAA’s regional office in Fort Worth, but
   he advised that he did not have an opportunity to read it until May 21. This
   chronology showed, in summary form, Department of Homeland Security and
   DPS contacts with Fort Worth controllers, but, more significantly, it also showed
   that on May 12, the Fort Worth Center had received a call from the Washington
   Operations Center requesting information on N711RD. This information caused
   Mandell to question how the Operations Center became involved. Mandell then
   contacted the Operations Center, ultimately learning that day, May 21, that
   Balloff had inquired of the Operations Center about N711RD on May 12.
   Mandell then spoke to Balloff and learned, for the first time, about the request
   from Rep. DeLay’s staff.

   Shortly thereafter, on May 21 (nine days after the fact), Mandell notified the
   Administrator and the Department’s Chief of Staff, who, in turn, immediately
   informed the Deputy Secretary, General Counsel, and the Secretary. When the
   Administrator and the Secretary were finally informed of Balloff’s contact with
   Rep. DeLay’s staffer, they recognized its importance and, in our opinion, took
   timely and appropriate action to have the circumstances investigated.

   Balloff told us he first learned of the absent Texas legislators in reading the
   Washington Post late on May 13. Balloff stated, in part, as follows:

      “. . . I figured out why they were calling. . . I just felt like I had been used. . . I
      don’t do anything for political purposes. . . and I just did not like. . . somebody
      calling me for political reasons. . . I would never use my office to help
      somebody out politically, for any political reasons, period.”

   We did not find Balloff’s actions in this matter to have violated any rules or
   regulations. However, while we do not have evidence that Balloff knew the
   purpose of the staffer’s request when he responded to it, we do not understand
   why he did not ask the staffer about the purpose of her request—particularly since
   he told us he thought it might involve a safety issue.

   Further, we concluded that Balloff should have promptly informed the
   Administrator when he realized on May 13, after reading the Washington Post,
   that the matter was one of national interest. Had he reported the contact at that
   point, the Administrator and the Secretary would have been informed more than a
   full week earlier, thus enabling FAA to be responsive to the House Homeland
   Security Appropriations Subcommittee, which had asked whether FAA had

Report No. CC-2003-123
                                                                                     7

   received any inquiries about the plane.

   In fact, Balloff had the opportunity to disclose the contact on May 15 when
   questioned by an FAA manager conducting fact-finding in relation to the
   Subcommittee’s inquiry. In view of the statements of this manager and Balloff,
   we believe that the manager’s inquiry of Balloff should reasonably have elicited
   his disclosure of the request from Rep. DeLay’s staffer. When we asked Balloff
   why he had informed no one, in light of the matter becoming one of national
   attention, he advised that he did not know why, stating he “just didn’t.”

Recommendations

We have briefed senior levels of the FAA and the Office of the Secretary regarding
our investigative results in this matter and have made the following recommendations
for remedial action:

• As discussed above, we recommend that the Department, in consultation with the
  FAA, develop specific policy and procedures regarding the processing of requests
  for aircraft and flight data from FAA’s information systems. In the interest of
  enhancing security and safety, we believe procedures should be instituted for
  FAA personnel—throughout the agency—to (a) positively identify requestors by
  name, organization, and point-of-contact; (b) inquire about the purpose of
  requests (i.e., in order to identify and address safety issues); and (c) formally log
  requests, with annotations as to what, if any, information was provided by FAA.
  Regarding (b) above, we recognize that there may be confidential reasons for law
  enforcement and other government agencies to request aircraft/flight information.
  Accordingly, procedures are needed for handling such confidential requests.

• Pursuant to the request from Representatives Oberstar and Turner, the issue of
  public availability (i.e., via the internet) of Air Traffic Control data, issue is
  currently the subject of review by the Department’s General Counsel and FAA’s
  Chief Counsel. We recommend that this issue continue to receive close
  examination and deliberations by senior levels of the Department and FAA. Also,
  we recommend that the Department’s review include a determination of the
  extent to which DOT’s Volpe Center and its contractors have coordinated their
  actions (vis-à-vis public availability of Air Traffic Control data) with FAA and
  the Department.




Report No. CC-2003-123
                                                                                     8

Remedial Actions by the Department and FAA

As reflected in the enclosed memorandum from the Department’s General Counsel,
the Office of the Secretary and the FAA have reviewed our report and the Secretary
and the Administrator fully concur with our findings and recommendations. In
response, the Department and FAA are taking the following remedial actions:

1. The FAA Administrator and Chief Counsel will speak with Assistant
   Administrator David Balloff today to counsel him concerning issues in regard to
   his judgment in this matter.

2. With respect to FAA’s need for clear policy for the disclosure of aircraft and
   flight data from FAA information systems, the FAA Administrator and Chief
   Counsel have prepared a draft FAA Order addressing those matters for the
   Secretary’s review. Upon approval by the Secretary, the FAA Order will be
   distributed agency-wide, and will be provided directly to FAA personnel having
   access to such information.

3. Regarding the issues associated with public availability (i.e., via the internet) of
   Air Traffic Control data, the Department and FAA are continuing to study the
   matter and will provide us with a copy of the written results upon completion.
   Following the terrorist attacks of September 11, the FAA had reviewed this
   subject, and recently conducted an informal review of these issues as a direct
   result of the issues we investigated in this matter. As part of the current review,
   the Department and FAA have already consulted with the Transportation Security
   Administration (TSA) and plan to obtain TSA’s formal assessment of the
   potential threats to aviation security.

We anticipate no further investigative action in this matter. However, we will advise
you of the implementation of the Department’s remedial actions as soon as they are
complete.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Todd J. Zinser, at
202-366-6767.

Sincerely,



Kenneth M. Mead
Inspector General
Enclosures (3)
Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)

                          Detailed Investigative Findings & Chronology

• Three separate FAA offices received requests for assistance in locating
  N711RD.

Our investigation determined that on Monday, May 12, 2003, FAA personnel in
Oklahoma City, Washington, DC, and Fort Worth, TX, received separate requests for
current and historical information identifying the location and destinations of a
general aviation airplane reportedly associated with the absent Texas legislators.
This airplane, a twin-engine Piper Cherokee—tail number N711RD—is registered to
Texas State Representative Pete Laney.

The information requests to FAA were as follows, in the order in which they
occurred on May 12: (a) Just before 1:00 p.m. EDT, a DPS officer in Austin called
the FAA office responsible for law enforcement liaison, which is located in
Oklahoma City; (b) around 4:00 p.m. EDT, a senior staffer from the Washington
office of Representative Tom DeLay called David Balloff, FAA’s Assistant
Administrator for Government and Industry Affairs; and (c) around 8:40 p.m. EDT,
Department of Homeland Security, followed by the Texas Department of Public
Safety (DPS), called an FAA air traffic control facility in Fort Worth.

We found that at least 13 FAA personnel were involved in responding to the various
requests for information about N711RD on May 12. Other than the Department of
Homeland Security’s inquiry to the FAA facility in Fort Worth and the staffer for
Rep. DeLay contacting Balloff, we found no indication that any other element of the
Administration or Congress had contacted FAA relative to locating the airplane.

• FAA provided information on the whereabouts of N711RD to the Department
  of Homeland Security, DPS, and Rep. DeLay’s staff.

We determined that, on May 12, 2003, (a) the FAA office in Oklahoma City referred
Texas DPS—which said its purpose was to find Texas legislators “in hiding”1—to a
Department of Homeland Security facility in California, without providing DPS with
any information; (b) Balloff, who said the staffer did not explain the reason for her

1
  According to the FAA employee who received the inquiry, the caller said that over 50 Texas legislators were
in hiding and that the Governor of Texas had issued a warrant for their apprehension. We were unable to
ascertain whether, in fact, the Governor ever issued any warrant or summons. However, Texas DPS provided
us with a copy of a letter from the Attorney General of Texas to the Director of DPS, dated May 12, 2003,
upholding—as lawful—a letter to DPS, on that same date, from the Sergeant-at-Arms of the Texas House,
requesting that DPS secure and return to the House, by any available means, absent House members. The
Texas Attorney General’s letter cites Article III, Section 10 of the Texas Constitution, and Rule 5, Section 8 of
the Texas House as providing authority for “the power to arrest absentees wherever they may be found.”


Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                                  2

request and he did not ask, queried FAA’s Washington Operations Center and
advised the staffer that the airplane was seven minutes away from landing in
Ardmore, OK, and later that evening, based on a follow-on request from the staffer
and subsequent inquiry to the Operations Center, informed her of the plane’s
locations the previous day, May 11; and (c) air traffic controllers in FAA’s Fort
Worth Center provided Department of Homeland Security and DPS with current and
historical flight data.

At least two controllers in FAA’s Fort Worth Center were aware of the purpose of
the inquiries at the time they were received and processed. A supervisory controller
told us he first learned of the search for the absent Texas legislators from local news
reports prior to reporting for work on May 12. He advised that later, in fielding the
call from DPS, he stated to the DPS officer, “You must be looking for the missing
Democrats,” which the officer acknowledged. A second Fort Worth controller
related that in contacting an Air Traffic Control facility in Lubbock, pursuant to a call
he received from the Department of Homeland Security, the controller with whom he
spoke said, “You know who that [plane] belongs to, don’t you? It’s the outgoing
Speaker, Laney, Speaker of the House.”

Regarding the Fort Worth Center’s contacts with the Department of Homeland
Security and DPS, a Fort Worth controller told us that the DPS officer who called
him said the airplane was overdue to its presumed destination of Mineral Wells, TX2,
on the evening of May 12, and requested a search and rescue operation, which the
controller said was not warranted as there was no evidence the plane had experienced
trouble in flight. Later that evening, the Fort Worth Center entered an “alert” for
N711RD in the air traffic control computer system, providing for immediate
notification to the Fort Worth Center had the plane contacted any air traffic control
unit within the Fort Worth Center’s area of coverage. The alert was canceled that
night when DPS located the plane on the ground in Graham, TX, which is in the
vicinity of Mineral Wells.

• The Administrator and the Secretary should have been informed sooner of
  FAA’s involvement. Information that FAA provided flight data to the
  Department of Homeland Security, DPS, and Rep. DeLay’s staff was not
  communicated to the Administrator and the Secretary until May 21.

Our investigation also determined the extent to which information about FAA’s
involvement in locating N711RD was communicated within the FAA and the Office
of the Secretary. In brief, we found that Balloff, who reports directly to the Deputy

2
 Earlier that evening, FAA’s Fort Worth Center had informed the Department of Homeland Security facility in
California that N711RD had an active flight plan from Ardmore to Mineral Wells. The Department of
Homeland Security in turn passed this information on to DPS.

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                             3

Administrator and Administrator, did not report the request from
Rep. DeLay’s staffer until May 21, when he responded to questioning by FAA’s
Chief of Staff, David Mandell.

On May 15, in a separate request to FAA, a Minority staffer for the House Homeland
Security Appropriations Subcommittee had asked whether FAA had received any
information requests about the plane associated with the Texas legislators. In
response, Mandell oversaw FAA’s fact-finding.

On Friday May 16, Mandell, who at the time was unaware of the request from Rep.
DeLay’s staff, advised Administrator Marion Blakey of the Appropriations
Subcommittee staffer’s request. Mandell also provided the Administrator with a
preliminary report that an FAA office in Oklahoma City had been contacted by DPS
but provided no information to DPS, and instead referred DPS to the Department of
Homeland Security facility in California.

On May 19 or 20, Mandell was briefed that DPS and the Department of Homeland
Security had called FAA’s Fort Worth Center, but he did not brief the Administrator
pending receipt further details. On May 20, Mandell was provided with a chronology
prepared by FAA’s regional office in Fort Worth, but he advised that he did not have
an opportunity to read it until May 21. This chronology showed, in summary form,
Department of Homeland Security and DPS contacts with Fort Worth controllers,
but, more significantly, it also showed that on May 12, the Fort Worth Center had
received a call from the Washington Operations Center requesting information on
N711RD. This information caused Mandell to question how the Operations Center
became involved. Mandell then contacted the Operations Center, ultimately learning
that day, May 21, that Balloff had inquired of the Operations Center about N711RD
on May 12. Mandell then spoke to Balloff and learned, for the first time, about the
request from Rep. DeLay’s staff.

Shortly thereafter, on May 21 (nine days after the fact), Mandell notified the
Administrator and the Department’s Chief of Staff, John Flaherty. Flaherty
immediately, on the night of May 21, conferred with the Department’s General
Counsel and the Deputy Secretary, and subsequently on that date briefed the
Secretary, who concurred in their recommendation that the General Counsel
investigate FAA’s involvement. Addressed in greater detail below is the sequence of
events regarding communication within FAA and the Office of the Secretary.

Balloff told us that Rep. DeLay’s staffer offered no explanation for her May 12
request and he did not ask her about it, though he stated to us, “Having worked at the
NTSB, the first thing that came to my mind was a safety issue.” Balloff further
advised that at FAA, he had not previously been contacted by any Congressional

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                      4

office asking for the location of an airplane.

Balloff told us he first learned of the absent Texas legislators when he read an article
in the Washington Post on May 13 while en route home; Balloff advised us it was
then that he realized the staffer’s request the previous day was connected to that
matter. Balloff stated, in part, as follows:

   “. . . I figured out why they were calling. . . I just felt like I had been used. . . I
   don’t do anything for political purposes. . . and I just did not like. . . somebody
   calling me for political reasons. . . I would never use my office to help
   somebody out politically, for any political reasons, period.”

Balloff advised that, per the Command Center’s advisement to him, the information
he obtained and passed on to Rep. DeLay’s staffer was public information. He
further related that having learned the purpose of the request after-the-fact, he
questions its appropriateness. Balloff also advised that, in hindsight, he would have
handled the staffer’s request differently, by coordinating with the FAA Chief
Counsel’s Office and senior agency officials, along with asking the requestor for
background about the request.

Balloff maintained that after providing Rep. DeLay’s staffer with the requested
information on May 12, he told nobody about it until May 21, when FAA’s Chief of
Staff, David Mandell, questioned him. When we asked Balloff why he informed no
one, in light of the matter becoming one of national attention, he advised that he did
not know why, stating he “just didn’t.”

JoAnn Horne, Deputy Director of FAA’s Office of Budget, was tasked with
conducting fact-finding necessary to respond to the Homeland Security
Appropriations Subcommittee staff. Horne told us of an inquiry she made with
Balloff on May 15. Horne stated as follows:

    “So I walked over and I saw David Balloff in the open office bay area and I
    told him that we had gotten a call from our previous House Appropriations
    Subcommittee member--staffer, asking if anyone in the agency had been
    called to provide assistance in locating the aircraft carrying the legislators. .
    . . if the state police, or anybody had called, asking for help in tracking down
    an airplane. He [Balloff] said no. He suggested that I talk to his deputy,
    David Broome. . . . So I had a conversation with David Broome. . . He said
    no . . .”

Balloff had a different recollection of Horne’s inquiry when we interviewed him
about it. He recalled that Horne had asked him something to the effect of whether

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                              5

anyone from the Department of Homeland Security had contacted his office about the
Texas issue or airplane, and that he replied no because she was only asking about
Department of Homeland Security contacts. When we questioned Balloff as to why
he did not inform her of the request he received from Rep. DeLay’s staff, Balloff
stated, “I answered the question the way she asked me the question.”

Balloff’s response to Horne further delayed notification to the Administrator and the
Secretary. On the afternoon of May 21, Mandell accompanied Administrator Blakey
on a flight to Williamsburg, VA, briefing her for the first time that FAA had provided
information to the Department of Homeland Security, DPS, and Rep. DeLay’s office
about N711RD. After arriving in Williamsburg, at about 8:30 p.m., Mandell
telephonically briefed DOT Chief of Staff Flaherty.

On the night of May 21, following Mandell’s advisement, Flaherty conducted a
conference call with Deputy Secretary Michael Jackson and DOT General Counsel
Kirk Van Tine, during which it was recommended that Van Tine would investigate
the facts and circumstances of the contacts with FAA. Following their discussion,
Flaherty called Secretary Mineta, apprising him of the matter. The Secretary
concurred with the course of action proposed by Flaherty, Van Tine, and Deputy
Secretary Jackson. Van Tine suspended his investigation when we initiated ours on
May 29.

Flaherty told us that he considered the potential misuse of FAA resources to be a
serious issue, and, consequently, he made a contemporaneous audiotaped dictation
regarding this matter within a few hours of his late May 21 discussions with Mandell,
Van Tine, the Deputy Secretary, and the Secretary. We transcribed the tape, which,
consistent with our interview of Flaherty, expresses that both he and the Secretary
were perplexed over the report they received that night that Rep. DeLay’s staffer had
not explained the purpose of her request, and that Balloff did not ask about it. The
transcript also relates Flaherty’s concern that the Office of the Secretary was not
timely apprised of FAA’s involvement in the Texas matter; in particular, Mandell
learned on May 16 that DPS had contacted FAA seeking the location of the airplane,
but he had not informed Flaherty. Additionally, the transcript reflects that Flaherty
instructed Mandell that night to submit a memorandum to him relating the
information of which Mandell advised him.

Consistent with the concern expressed by DOT Chief of Staff Flaherty, we, too, find
it difficult to understand why Balloff did not ask Rep. DeLay’s staffer about the
purpose of her request, especially since, as a former employee of the National
Transportation Safety Board, Balloff told us he had thought, at the time, that a safety
issue might be involved.


Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                              6

Further, Balloff was unable to articulate why he did not report his contact with
Rep. DeLay’s staffer to anyone until questioned by Mandell on May 21, even though
he knew from the Washington Post on May 13 that the matter had become one of
national attention. Had he acted promptly to report the matter, the Administrator,
along with the Secretary, would have been informed over a week earlier. Further, it
is our assessment that Horne’s inquiry of Balloff on May 15, even as he described it,
should have triggered disclosure to her of his contact with Rep. DeLay’s office, and
thus would have enabled FAA to be responsive to the inquiry from the House
Homeland Security Appropriations Subcommittee staff.

Balloff’s response to our investigation also contributes to our difficulty in
understanding why he did not inquire about the purpose of the request from
Rep. DeLay’s staffer. In particular, it was necessary for us to interview Balloff on
four separate occasions because he had not advised us of at least three events of
considerable relevance to the facts and circumstances we were investigating:

• We learned from our analysis of the Operations Center transcript for May 12 that
  another individual was present with Balloff when he called Rep. DeLay’s staffer
  to inform her of the current location of N711RD. When we initially interviewed
  Balloff, he did not recall that another person was present with him, and then, upon
  reinterview after we identified the individual, he still did not recall this person’s
  presence, even though this individual corroborated some of Balloff’s statements.

   We had determined that after receiving the call from Rep. DeLay’s staffer, Balloff
   had asked a subordinate GS-15 level employee, David Kerr, to join him in his
   office in order to determine how N711RD could be quickly located. Kerr related
   that Balloff informed him of the staffer’s request and together they pondered why
   the staffer might need the information, namely the possibility that the plane was
   missing due to an accident. Kerr was present with Balloff when he called the
   staffer back to inform her that the plane would be landing at Ardmore. Kerr
   confirmed that in calling her back, Balloff did not query her about the reason for
   the request or whether there was a flight safety concern involved. According to
   Kerr, Balloff indicated no awareness of the purpose of the staffer’s request. Upon
   reinterview, Balloff advised that he had not recalled Kerr’s involvement.

• Balloff did not disclose to us Horne’s inquiry of him. When we learned of it and
  reinterviewed him, he told us that he had not recalled it during our initial
  interview.

• Rep. DeLay’s staffer told us that on the morning of May 13, she sent Balloff an
  email that included a newspaper article about the matter in Texas. Rep. DeLay’s
  office provided us with a copy of the email message, reflecting that the staffer

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                 7

   transmitted it to Balloff (using a valid email address) at 11:23 a.m. The message
   states, “I thought you would find this article of interest. . . . [nothing further]”,
   followed by text (not an attachment) of a May 12, 11:12 p.m. Houston Chronicle
   online article captioned, “Some rebel Texas lawmakers surface in Oklahoma
   town.” The article relates that a group of state Democratic legislators had been
   located in Ardmore, OK, the evening of May 12. As Balloff did not mention the
   staffer’s email when we interviewed him, and we were unaware of it, we
   reinterviewed him. Balloff told us he did not recall having seen it.

In addition, the Operations Center transcript for May 12 reflects that beginning at
8:45 p.m. EDT, Balloff placed four calls to the Operations Center asking to be
connected to FAA’s Assistant Administrator for Aviation Policy, Planning, and the
Environment. Neither Balloff nor the Assistant Administrator for Policy, who
previously worked together on Capitol Hill and describe themselves as friends,
recalled whether they spoke that night. They advised that if they spoke, it likely
concerned policy-related issues associated with the FAA Reauthorization bill. They
denied having discussed the request from Rep. DeLay’s staffer.

While Balloff did not make any statements during our four interviews with him to
indicate he intentionally withheld disclosure to his superiors of the request from
Rep. DeLay’s staffer, the circumstances outlined above, collectively, are of a nature
to foster such an appearance.

• FAA lacks clear internal guidance for the processing of requests for FAA
  aircraft/flight information received from law enforcement and other
  Government entities. A separate issue exists concerning public availability to
  aircraft location/flight data via commercial databases.

It is clear from our findings that FAA protocols for the processing of information
requests from law enforcement or other government entities require considerable
strengthening. We did not consider it our role, nor did we attempt, to define what
does, and does not, constitute a legitimate request from law enforcement/
government organizations.

FAA controllers we interviewed were not aware of any protocols to follow in
responding to requests from law enforcement or other government officials for
aircraft location/destination information. We found that controllers took no action to
verify the identities of callers, inquire about the reason for the request (i.e., in order
to identify flight safety issues), or log the contacts—to include annotating what
information was provided. In fact, none of the involved Fort Worth controllers even
recalled the name of the caller purporting to be a DPS officer. If the calls had
concerned a safety of flight issue, for example, the controllers would not have known

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                                     8

who specifically to call back to provide further assistance if necessary. Such a
method of operation potentially limits FAA’s effectiveness in carrying out its safety
mission. At the same time, such a lack of protocols creates additional vulnerabilities,
namely the possibility of releasing data from its information systems to individuals
who may falsely identify themselves as law enforcement or other government
officials.

We were informed that FAA facilities do not presently maintain logs of information
requests they receive from law enforcement and other government officials.
Personnel at the Washington Operations Center, the Fort Worth Center, and the law
enforcement liaison office in Oklahoma City related that they receive such requests
on an occasional basis, though they were uncertain of the average number of requests
they receive per week or month.

Further, as reflected in the enclosed Washington Operations Center transcript, and in
our interviews, there was some uncertainty and confusion on the part of FAA
personnel as to whether aircraft/flight data was publicly releasable. This, too,
supports the need for clear policy guidance.

Beyond the lack of FAA internal policy, we note the broader, more complex, issue of
public availability to current and historical aircraft and flight data. We found that
while the information FAA personnel provided to the Department of Homeland
Security, DPS, and Rep. DeLay’s staff was retrieved from FAA databases,
comparable information—including near real-time aircraft locator data—is currently
available to the general public through a number of commercial databases accessible
via the internet.

Through a program known as the Aircraft Situation Display to Industry (ASDI),
DOT’s Volpe Center makes certain raw FAA Air Traffic Control data—both near
real-time (5-10 minute lag) and historical—for general aviation and commercial
aircraft available to designated industry parties in accordance with user agreements.
The industry parties, in turn, process the data and make it publicly available via the
internet. Some internet information providers require subscription fees, though they
are typically nominal. Our research shows that similar capabilities exist for general
aviation and commercial aircraft operating in Canada, England, the Caribbean, and
over the Atlantic and Pacific Oceans.

Using known internet search engines, we were able to quickly determine the current
locations (near real-time, 5-10 minute lag) and destinations of airborne general
aviation aircraft, as well as historical aircraft destination data3. In fact, on June 10,
3
 In our internet searches, we used such search terms as, “Real time tracking of general aviation aircraft” and
“How do I find the current location of a general aviation aircraft?”

Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                          9

we were able to determine the flight origination and destination points of N711RD on
May 12.

Chronology of May 12 Contacts

The May 12 contacts are presented, chronologically, as follows, and we have also
enclosed a detailed time-line of all associated events occurring between May 12 and
May 21:

Oklahoma City – DPS request for help in locating Texas legislators “ in hiding.”

Just before 1:00 p.m. EDT on May 12, an investigator in the FAA Civil Aviation
Security (CAS) office responsible for law enforcement liaison4, which is located in
Oklahoma City, received a call from an individual identifying himself as a
representative of the Austin Division of the Texas DPS. According to the CAS
investigator, the caller (who provided his name) spoke in generalities about a concern
that over 50 Texas legislators were in hiding and that the Governor of Texas had
issued a warrant for their apprehension. The caller requested FAA assistance in
locating a plane believed to be carrying some of the legislators.

As the DPS official did not have an aircraft registration/tail number or the name of
the pilot, and since the CAS office lacks direct aircraft tracking capabilities, the CAS
investigator suggested that DPS call the Department of Homeland Security’s Air &
Marine Interdiction Coordination Center (AMICC—located at March Air Reserve
Base in Riverside, CA), which has tracking capabilities. The CAS investigator did
not think she mentioned the DPS contact to anyone that day, May 12.

The CAS investigator advised that her office receives inquiries from DPS and other
law enforcement agencies regarding aircraft and pilots. However, she was not aware
of any official FAA policy regarding release of aircraft information to parties outside
FAA.

Washington DC – Congressional Request to locate N711RD

We found that on the afternoon of Monday, May 12, 2003, a senior staffer for
Rep. Tom DeLay in Washington placed a telephone call to David Balloff, FAA’s
Assistant Administrator for Government and Industry Affairs, requesting the current
location of N711RD, which she believed had departed from Austin, TX. Shortly
thereafter, Balloff called FAA’s Washington Operations Center, advising the

4
  This CAS office serves in a law enforcement liaison capacity under the Law Enforcement Assistance
Program and Drug Interdiction Support Program.


Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                                     10

specialist with whom he spoke that a Congressional office had asked him for the
location of N711RD.

The Operations Center queried an FAA database identifying the plane’s current
location. At approximately 4:21 p.m. EDT, the Operations Center specialist
informed Balloff that the plane was airborne and would be landing in about seven
minutes at the Ardmore, OK, Downtown Executive Airport5.

Balloff immediately relayed this information to Rep. DeLay’s staffer (at 4:21 p.m.
EDT, per DOT telephone records), who then inquired about the location of the plane
the previous day, May 11. At 4:26 p.m. EDT, Balloff again called the Washington
Operations Center, this time speaking with a second specialist. In researching the
question, the Operations Center contacted FAA facilities in San Angelo and Fort
Worth, TX, and McAlester, OK. At some point after 5:10 p.m. EDT, Balloff visited
the Operations Center6 and was informed that on May 11, N711RD made two round
trips from Plainview, TX, to Ardmore7. Balloff advised Rep. DeLay’s staffer of this
information at 6:23 p.m. EDT, the time shown by DOT telephone records.

As Operations Center telephone calls are recorded, we have enclosed a copy of a
transcript of the Center’s conversations with Balloff and Texas FAA personnel8.

Texas – Department of Homeland Security and DPS contacts with FAA’s Fort
Worth Air Route Traffic Control Center

On May 12, at approximately 8:40 p.m. EDT, a Department of Homeland
Security/AMICC specialist called FAA’s Fort Worth Air Route Traffic Control
Center for assistance in locating N711RD; the AMICC specialist had just received a
call from a DPS officer asking for the whereabouts of the plane, which the DPS
officer told AMICC had supposedly departed Ardmore for Georgetown, TX. The
Fort Worth air traffic controller (a shift supervisor) who received the call advised the
AMICC specialist that N711RD was shown as having an active flight plan from

5
    The flight actually originated in Plainview, TX.
6
    Balloff’s office is in close proximity to the Operations Center.
7
 We determined that the information provided to Balloff by the Operations Center concerning the plane’s
May 11 flight activity was erroneous. It had actually flown from Austin to Plainview on May 11.
8
  In the transcript, an Operations Center supervisor states to an FAA employee in San Angelo, TX, “I’ve been
asked by Mr. Balloff . . . they’re doing a Congressional hearing concerning something that they didn’t want to
share with us.” When we interviewed the supervisor about these statements, he advised that he misspoke,
acknowledging, consistent with the transcript, that Balloff did not represent to the Operations Center that his
request involved a Congressional hearing or that he had refused to share information.


Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                                     11

Ardmore heading for Mineral Wells, TX, and provided him with a phone number for
the Mineral Wells airport.

About 20 minutes later, the AMICC specialist again called FAA’s Fort Worth Center,
informing a different controller that N711RD was not at the Mineral Wells airport or
in Plainview, TX (which, based on a proposed flight plan, AMICC thought may have
been the plane’s ultimate destination). AMICC asked the Fort Worth controller if he
could check FAA facilities covering the route to Plainview. The controller, after
checking with FAA’s Lubbock Radar Approach Control facility9, called AMICC
back, advising that FAA Lubbock had no record of contact with the plane. AMICC
in turn informed the DPS officer, suggesting that he directly contact FAA’s Fort
Worth Center for further assistance; AMICC provided the DPS officer with a phone
number for the Fort Worth Center.

The DPS officer subsequently called FAA’s Fort Worth Center, speaking with a third
controller. According to this controller, the DPS officer said he was looking for
N711RD, which was overdue. The controller checked an FAA database, indicating
that the plane had departed Ardmore that evening around 8:00 p.m. EDT and
apparently proceeded to Mineral Wells. When the controller advised the DPS officer
of this, the officer said he wanted to initiate a search and rescue operation. The
controller related to us that he informed the DPS officer that a search and rescue
mission was not warranted since there did not appear to be anything to indicate the
plane had encountered trouble.

Later that evening, on May 12, the DPS officer again called the Fort Worth Center,
speaking with the supervisory controller who was initially contacted by AMICC.
According to the controller, the officer stated that Texas Rangers were at the Mineral
Wells airport, but N711RD was not there. The controller replied stating, “You must
be looking for the missing Democrats,” which the officer acknowledged10. The
controller told the officer that N711RD had descended below the Fort Worth Center’s
radar coverage (4,000 feet above ground level) in the vicinity of Bridgeport, TX.

According to the controller, the officer became concerned, asking whether criminal
charges could be filed against the pilot for descending below radar detection. The
controller told the DPS officer that to his knowledge, the pilot had not violated any
FAA regulations or laws. The controller related that the DPS officer said DPS was

9
  The Fort Worth controller told us that the Lubbock controller with whom he spoke stated, “You know who
that [plane] belongs to, don’t you? It’s the outgoing Speaker, Laney, Speaker of the House.”
10
  The controller told us he first learned of the search for the missing Texas Democratic legislators from local
news reports prior to reporting to work on May 12.


Report No. CC-2003-123
(Enclosure to 7/11/03 DOT-OIG Letter to Sen. Lieberman)                                             12

“between a rock and a hard place” and needed to find the airplane. The controller
informed the DPS officer of four or five airports in the vicinity of the Mineral Wells
airport where the plane could have landed. The controller advised that during the
evening of May 12, the Fort Worth Center entered an “alert” for N711RD in the air
traffic control computer system, providing for immediate notification to FAA had the
plane contacted any air traffic control unit.

The alert was canceled that night after DPS located the plane on the ground in
Graham, TX. During his interview with the Department of Homeland Security
Office of Inspector General, the DPS officer related that he called the Fort Worth
Center a third time on the night of May 12, advising that DPS had located N711RD
at the Graham, TX, airport (one of the possible locations identified by the Fort Worth
Center controller.)11 As reflected above, we found that at least two controllers in Fort
Worth were aware of the purpose of the inquiries at the time they were received and
processed.

                                                  #




11
  We identified and interviewed this DPS officer, who largely confirmed the sequence and account of his
contact with the controllers at FAA’s Fort Worth Center on May 12.

Report No. CC-2003-123
